<html>
<title> - [H.A.S.C. No. 113-1] COMMITTEE ORGANIZATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                          [H.A.S.C. No. 113-1] 
                         COMMITTEE ORGANIZATION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD

                            JANUARY 15, 2013

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
78-265                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc9b8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>  

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
                  Robert L. Simmons II, Staff Director
             Zach Steacy, Director, Legislative Operations

                         COMMITTEE ORGANIZATION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 15, 2013.
    The committee met, pursuant to call, at 11:30 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. We have 
four items of official business to consider today: the adoption 
of the committee's oversight plan; approval of the rules; 
approval of the committee's security procedures; and the 
appointment of committee staff.
    Good morning to all of you. Let me first welcome our new 
Members returning and new to the House Armed Services Committee 
[HASC]. We have a full schedule today, so I will only make 
brief comments at this point. First, I want to reiterate the 
pledge I made when I was named chairman to continue this 
committee's longstanding bipartisan tradition in the 
furtherance of a strong national defense.
    We will certainly have areas of disagreement, but the 
security challenges facing our Nation require that we find 
solutions and not merely prolonged political debate. I think in 
the last couple of years, our committee has probably been the 
only one that has passed major legislation that has reached its 
way to the President's desk, and even though it was late, it 
was signed into law. So we want to continue that tradition. And 
the Members that have been here before, I think, understand 
that those are not just words; that we actually--that that is 
what we do.
    Second, our armed services are being tested in the field on 
a daily basis. They are completing their mission, and we must 
as well. Our mission is enshrined in the Constitution. We are 
charged with providing for the common defense, and as the 
plaque in front of this rostrum reminds us, Article I, Section 
8, of the Constitution further affirms that Congress shall have 
the power to raise and support armies, to provide and maintain 
a navy, to make rules for the government and regulation of the 
land and naval forces.
    This is a heavy responsibility, and it is particularly 
weighty in a time of war and fiscal austerity. Nevertheless, it 
is the job of this committee to ensure that our men and women 
in uniform are properly trained, resourced, equipped, and 
supported so that they can fulfill not just today's missions 
but future missions and return safely to their families and 
loved ones.
    Lastly, I know it will come as no surprise to most of you, 
but the committee will become very busy in the weeks and months 
ahead. Although there is significant uncertainty regarding many 
issues facing the committee, not the least of which is the 
threat of defense sequestration, the one thing our troops and 
their families have been able to rely on for the last 51 years 
is that Congress will deliver a defense authorization bill. And 
it is with that in mind that I remain committed to moving 
forward with a strong national defense authorization bill and 
to provide the oversight that the Nation demands of us. I will 
be informed by your views, too, and will both encourage and 
expect your participation. We have a lot to do. We are the 
largest committee in Congress. I welcome any and all Member 
ideas and participation in the issues that we need to cover.
    Before I turn to Ranking Member Smith for his thoughts and 
before we introduce our new slate of Members, I want to take a 
moment to note that last week, America lost a selfless servant 
and a true hero. Doug Roach, a member of our committee staff, 
was more than a member of the staff. He was an institution. He 
came to the staff in 1991. While we are deeply saddened by his 
loss, each of us had come to rely on Doug's counsel and 
guidance on a variety of issues, and he always gave it to us 
straight, without regard to politics or parochial interests. He 
was trusted and admired by Republicans and Democrats alike. He 
was a man of noble virtue, a tough fighter pilot. We are 
checking this out, but he flew 516 combat missions in Vietnam, 
and we think that that was more than any other pilot. He also 
flew two missions two different times with the Thunderbirds.
    But he was also known for his acts of kindness. Doug 
committed every waking moment of service to his country; first, 
in the United States Air Force, and later, to this committee, 
where, as I said, he has served since 1991. He was a selfless 
man who worked very hard right up to the end. We will all have 
an opportunity next Tuesday evening. We are going to here in 
this room, at 6:00, have a memorial for him. More information 
on that will follow.
    But for now, I just ask you if you will join me in a moment 
of silence in memory of Doug.
    [Moment of silence observed.]
    The Chairman. Thank you very much. Ranking Member Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I want to begin by echoing your comments about Doug. He 
was, you know, a good friend and just an incredible American. 
His service to the country and the Air Force and then his 
service on this committee, he represented the best of what we 
all, you know, aspire to as public servants, absolutely 
dedicated to this country, absolutely dedicated to doing his 
job well, and nobody knew more about how this place ran than 
Doug.
    And the thing I really admired about him is he took the 
time to work with all of us as Members as well, you know, 
whether you were a freshman Member or whoever you were, he was 
so passionate about what he did, he would love to have the 
opportunity to explain it to absolutely anyone who was willing 
to listen. On issue after issue, he dove in, and had an 
unbelievable understanding of those issues. And it was always 
about, you know, defending this country and making sure the 
American taxpayers got their money's worth.
    It was a great, great pleasure to work with him, and as the 
chairman said, he personified also what this committee is 
about, bipartisan. He worked for Democrats. He worked for 
Republicans, back and forth. That didn't matter. The issues 
mattered, and the country mattered. And he will be sorely 
missed on this committee.
    So I thank you for taking the time to say a couple of words 
about him, and we will look forward to honoring him next 
Tuesday as a committee. So thank you for that.
    And thank you for starting us off here in the 113th 
Congress. I want to start by thanking Chairman McKeon for the 
job that he has done as chairman of this committee. I could not 
ask for a better partner to work with. As the chairman 
mentioned, we pride ourselves in this committee on being 
bipartisan and on getting our job done; things that are 
increasingly rare in this institution, and it really, it starts 
with the chairman.
    I have been through a number of chairmen during my 16 years 
in this Congress. Every single one has made a priority to make 
sure that we maintain that tradition, the bipartisan tradition, 
the focus on national security.
    And Buck, you have done an outstanding job of continuing 
that. You have made me a full partner in our effort here, and I 
really appreciate that. And it is that type of leadership that 
will keep that tradition going.
    As you mentioned, for 51 straight years, we have passed our 
bill. And it is not a small bill, 1,600 pages, $633 billion 
this last year, and it has incredibly important policy 
contained in that. And to get that done, we have to compromise. 
We have to work with the Senate, my goodness.
    So we work with each other. We work with the Senate. It is 
not easy, but it gets done, and it makes an enormous 
difference, first and foremost, for the men and women who serve 
in the military. Giving them some consistent legal support is 
incredibly important, and we do that. So I am very, very proud 
of that, proud of the tradition.
    I welcome back the Members who have been here. We have a 
very large group of new Members, and I will say you are all 
very lucky. You are all what in my opinion is the best 
committee in Congress. So we are very, very happy to have you. 
And I look forward to having, hopefully, knock on wood, another 
productive year on this committee.
    Again, I thank the chairman for his leadership. I want to 
close, I guess, by, you know, where I started, and the other 
part about this committee is the staff makes it happen. You 
know, Doug personified that, but he is not alone. As you look 
around you, these are the people who do the work that help us 
get to the point where we get that bill done. There is depth of 
knowledge in here that I urge every Member, both new and old, 
to take advantage of and work with the staff. They make an 
incredible difference for this committee and for this country.
    And with that, I will yield back.
    The Chairman. Thank you, let me introduce the very large 
and impressive team joining with us. I will introduce the 
Republicans, and Adam can introduce the Democrats. Their 
backgrounds will benefit our committee, the military services 
and most importantly, the men and women of the Armed Forces and 
their families.
    First, I would like to welcome Rob Bishop back. He is from 
the First District of Utah. He has been a trusted friend, a 
leader on HASC issues. He took a leave of absence last term to 
serve, again, on the Rules Committee. His district includes 
Hill Air Force Base and key defense employers. Although we will 
miss his support from the Rules Committee during the 
consideration of the NDAA [National Defense Authorization Act], 
we would rather have him back home here with us.
    Welcome back, Rob.
    Our first new House Member is Rich Nugent, representing the 
11th District of Florida. This is his second term in Congress. 
Prior to his first term in the House last Congress, Rich was 
sheriff of Hernando County, Florida. He has three sons in the 
Army who have served combat tours in Iraq and Afghanistan. The 
committee will benefit from his expertise as both a former 
member of the Air National Guard and a military parent.
    Welcome.
    From the great State of South Dakota, we welcome Kristi 
Noem. She is at-large Representative for the Mount Rushmore 
State. Kristi's State is home to Ellsworth Air Force Base and 
several other military installations. She is a farmer, a 
rancher, small business owner, and served in the South Dakota 
House of Representatives.
    Welcome.
    From the Eighth District of California, my neighbor, who 
represents a big part of what I represented for the last 10 
years, we welcome Paul Cook. Paul's district includes several 
military installations that I know very well, Fort Irwin, 29 
Palms, the Marine Corps Logistics Base at Barstow, the Marine 
Mountain Warfare Center and others. Paul served in the U.S. 
Marine Corps for 26 years. He is an infantry officer, retired 
colonel, the winner of the Bronze Star, and two Purple Hearts. 
So he will bring a great perspective to our committee.
    Welcome.
    From the First District of Oklahoma, we welcome Jim 
Bridenstine. Jim's district is based in Tulsa. He is a 
lieutenant commander in the U.S. Navy. He served nearly 10 
years Active Duty service and is still a reservist. He is a 
naval aviator who flew E-2C Hawkeyes in Central and South 
America as part of drug interdiction mission. We look forward 
to Jim bringing his experience to the committee.
    From the Second District of Ohio, Brad Wenstrup. Brad has 
served in the U.S. Army Reserve Medical Corps. He is a 
lieutenant colonel and served 1 year of Active Duty in Iraq as 
a combat surgeon. We are looking forward to having his 
perspective on the HASC.
    And finally, I would like to introduce Jackie Walorski, 
from the Second District of Indiana, based in South Bend. 
Jackie's district is home to Grissom Air Force Base and several 
industry partners who help to sustain our troops, including the 
production of equipment like the Humvee. Jackie served three 
terms in the Indiana General Assembly before joining the House.
    Welcome, Jackie.
    We are fortunate to have such a talented group join our 
team here at the committee.
    And I would now like to recognize Ranking Member Smith to 
introduce the Democratic Members.
    Mr. Smith. Thank you, Mr. Chairman.
    We, too, have a large contingency this time. Two years ago, 
it was a little lopsided, I must say, so it is good that we 
have a good group of new Democrats coming on the committee as 
well.
    And we will start with Andre Carson, who is not a new 
Member of Congress. He is a new Member to the committee. He 
was, you know, got interested in public service because of 
someone who I served with, came to Congress with, his 
grandmother, Julia Carson. He started his profession as a law 
enforcement officer, served as an investigator for the Indiana 
State Excise Police for 9 years, later joined the Indiana 
Department of Homeland Security and was detailed to an 
intelligence fusion center, supervising an antiterrorism unit.
    Welcome to the committee. Happy to have you on board.
    Carol Shea-Porter is a Member who is coming back to our 
committee, served for one term from 2008-2010, so has great 
experience, from the State of New Hampshire, I should point 
out, so we appreciate having her back on the committee. She has 
worked on a number of very important issues in Armed Services. 
We appreciate having the experience.
    Dan Maffei from New York, well, I believe you coined the 
phrase, a red-shirt freshman, which I thought was very clever. 
So he is back, but he is new to this committee, represents 
upstate New York. He has served as a Representative for two 
different congressional districts now in New York. I think most 
importantly, he has also worked as a staffer for Congress. As I 
mentioned in my opening remarks, I think that is the talent and 
skills that are most necessary to be success here. So we are 
very happy to have Dan back.
    Derek Kilmer, from the State of Washington, happy to have 
another Washingtonian on the committee. Derek served in both 
the State House and the State Senate. He has the unenviable 
task of taking over for Norm Dicks, but he is more than up to 
it. And the district that he represents has a very strong 
national security presence with the Puget Sound Naval Shipyard, 
and Bangor Submarine Base, as well as a number of contractors 
and others. I believe the Navy is the largest employer in the 
Sixth District the State of Washington.
    So welcome. Happy to have you with us.
    Joaquin Castro is from Texas, represents San Antonio, 
previously served in the State legislature there. San Antonio 
is home to Lackland Air Force Base; again, a large number of 
defense contractors, very critical to our defense industry.
    So happy to have your perspective. Texas is going to be 
well represented on this committee as well.
    And we have Tammy Duckworth, who I think most of us know. 
She worked in the Administration as Assistant Secretary for 
Public and Intergovernmental Affairs, the United States 
Department of Veterans Affairs, has been a tireless advocate 
for veterans, and is an Iraq war veteran herself, and I think 
is going to bring just a wealth of experience to this committee 
based on her service for veterans and for active duty.
    We are very, very happy to have you on the committee.
    Scott Peters is a newly elected Congressman representing 
California's 52nd District down in San Diego, and he was 
previously on the San Diego City Council and the first person 
to hold the post of President of the City Council and he has 
also served on the Commission for the Unified Port of San Diego 
before becoming a Member of Congress. Obviously, the Navy ship 
industry is huge down in San Diego so that perspective will be 
very much appreciated.
    Bill Enyart from Illinois is newly elected for Illinois's 
12th District. He is a former attorney in the Adjutant General 
of Illinois, served in the U.S. Air Force before joining the 
Illinois Army National Guard in 1982, holding the rank of major 
general. He was appointed to lead the National Guard and the 
Illinois Department of Military Affairs as the 37th adjutant 
general in 2007. He retired from the military in 2012.
    Welcome to the Armed Services Committee. Great to have you 
on board.
    Again, Texas, Pete Gallego, newly elected for Texas' 23rd 
Congressional District, served as a member of the Texas House 
of Representatives from the 74th District, based around his 
native Alpine, Texas, and obviously, as can you tell from the 
membership of the committee, Texas is incredibly important to 
our national security, a ton of bases, a ton of defense 
contractors there.
    Welcome as well.
    And one more from the great State of Texas, Marc Veasey, a 
freshman from Texas' newly created 33rd Congressional District, 
served in the Texas House of Representatives before that. The 
district is centered around the Fort Worth area, where, you 
know, Bell Helicopter, Lockheed F-35, and a lot of very 
important stuff going on down there for our national security. 
So we have great new Representatives on both sides of the 
aisle.
    Thank you, Mr. Chairman, and welcome all to our committee.
    The Chairman. Thank you, Mr. Smith.
    And to the new Members, I join Adam and welcome you all to 
the committee. I look forward to working with you. I think you 
will find service on this committee very rewarding, and we 
should have a great time this year working together.
    Okay, on to the business. For those of you who are new, we 
try to get through this as expeditiously as possible. I talk as 
quickly as I can. And if you don't talk a whole lot, we will 
not delay your day very much here.
    Now, on to the business. I call up Committee Resolution No. 
1 regarding the committee rules for the 113th Congress. The 
clerk shall read the resolution.
    Mr. Zakheim. Committee Resolution No. 1. Resolved, that the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee rules for the 113th Congress, which are 
stated in the copy before each Member.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T8265.001
    
    [GRAPHIC] [TIFF OMITTED] T8265.002
    
    [GRAPHIC] [TIFF OMITTED] T8265.003
    
    [GRAPHIC] [TIFF OMITTED] T8265.004
    
    [GRAPHIC] [TIFF OMITTED] T8265.005
    
    [GRAPHIC] [TIFF OMITTED] T8265.006
    
    [GRAPHIC] [TIFF OMITTED] T8265.007
    
    [GRAPHIC] [TIFF OMITTED] T8265.008
    
    [GRAPHIC] [TIFF OMITTED] T8265.009
    
    [GRAPHIC] [TIFF OMITTED] T8265.010
    
    [GRAPHIC] [TIFF OMITTED] T8265.011
    
    [GRAPHIC] [TIFF OMITTED] T8265.012
    
    [GRAPHIC] [TIFF OMITTED] T8265.013
    
    [GRAPHIC] [TIFF OMITTED] T8265.014
    
    The Chairman. The proposed committee rules have been 
developed jointly with Ranking Member Smith and subsequently 
provided to all Members' offices on Friday, January 11th.
    Following consultation with Mr. Smith, I ask unanimous 
consent that the resolution be considered as read and that the 
resolution be open to amendment at any point.
    Is there objection?
    Without objection, it is ordered.
    There are a few proposed changes to the committee rules 
from the 112th Congress. First, the proposed rules include one 
change made by the new Rules of the House, which now require 
the committee to submit two activity reports per Congress, 
instead of four.
    Second, the proposed rules would update the jurisdiction of 
certain subcommittees. For three subcommittees the proposed 
rules would add jurisdiction over sustainment accounts 
associated with weapons systems for which each subcommittee 
already oversees procurement. This change would apply to the 
subcommittees on Tactical Air and Land Forces, Seapower and 
Projection Forces, and Strategic Forces.
    Readiness jurisdiction remains unchanged from the previous 
Congress and retains jurisdiction of overall readiness to 
include weapons sustainment.
    The last subcommittee modification would be to the 
Subcommittee on Intelligence, Emerging Threats and 
Capabilities, which was formerly known as the Subcommittee on 
Emerging Threats and Capabilities. The jurisdiction of the 
subcommittee remains relatively unchanged, except for the 
addition of intelligence policy, including coordination of 
military intelligence programs, national intelligence programs, 
excluding the national intelligence space programs, and DOD 
[Department of Defense] elements that are part of the 
intelligence community.
    At this time, is there any discussion, or are there any 
questions concerning the committee rules?
    If there is no further discussion, are there any amendments 
to the committee rules?
    If there are no amendments, the chair now recognizes the 
gentleman from Texas, Mr. Thornberry, for the purpose of 
offering a motion regarding Committee Resolution No. 1, the 
committee rules.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 1, concerning the committee rules.
    The Chairman. The question now occurs on the motion of the 
gentlemen from Texas, Mr. Thornberry.
    So many as are in favor will say aye.
    Those opposed, no.
    A quorum being present, the motion is agreed to and without 
objection, a motion to reconsider is laid upon the table.
    The next order of business is Committee Resolution No. 2 
regarding the committee's oversight plan for the 113th 
Congress. I call up Committee Resolution No. 2.
    The clerk shall read the resolution.
    Mr. Zakheim. Committee Resolution No. 2. Resolved, that the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee oversight plan for the 113th Congress, a 
copy of which is before each Member.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T8265.015
    
    [GRAPHIC] [TIFF OMITTED] T8265.016
    
    [GRAPHIC] [TIFF OMITTED] T8265.017
    
    [GRAPHIC] [TIFF OMITTED] T8265.018
    
    [GRAPHIC] [TIFF OMITTED] T8265.019
    
    [GRAPHIC] [TIFF OMITTED] T8265.020
    
    [GRAPHIC] [TIFF OMITTED] T8265.021
    
    [GRAPHIC] [TIFF OMITTED] T8265.022
    
    [GRAPHIC] [TIFF OMITTED] T8265.023
    
    [GRAPHIC] [TIFF OMITTED] T8265.024
    
    [GRAPHIC] [TIFF OMITTED] T8265.025
    
    [GRAPHIC] [TIFF OMITTED] T8265.026
    
    [GRAPHIC] [TIFF OMITTED] T8265.027
    
    [GRAPHIC] [TIFF OMITTED] T8265.028
    
    [GRAPHIC] [TIFF OMITTED] T8265.029
    
    [GRAPHIC] [TIFF OMITTED] T8265.030
    
    [GRAPHIC] [TIFF OMITTED] T8265.031
    
    [GRAPHIC] [TIFF OMITTED] T8265.032
    
    [GRAPHIC] [TIFF OMITTED] T8265.033
    
    [GRAPHIC] [TIFF OMITTED] T8265.034
    
    [GRAPHIC] [TIFF OMITTED] T8265.035
    
    [GRAPHIC] [TIFF OMITTED] T8265.036
    
    [GRAPHIC] [TIFF OMITTED] T8265.037
    
    [GRAPHIC] [TIFF OMITTED] T8265.038
    
    [GRAPHIC] [TIFF OMITTED] T8265.039
    
    [GRAPHIC] [TIFF OMITTED] T8265.040
    
    [GRAPHIC] [TIFF OMITTED] T8265.041
    
    [GRAPHIC] [TIFF OMITTED] T8265.042
    
    [GRAPHIC] [TIFF OMITTED] T8265.043
    
    [GRAPHIC] [TIFF OMITTED] T8265.044
    
    [GRAPHIC] [TIFF OMITTED] T8265.045
    
    [GRAPHIC] [TIFF OMITTED] T8265.046
    
    [GRAPHIC] [TIFF OMITTED] T8265.047
    
    [GRAPHIC] [TIFF OMITTED] T8265.048
    
    [GRAPHIC] [TIFF OMITTED] T8265.049
    
    [GRAPHIC] [TIFF OMITTED] T8265.050
    
    [GRAPHIC] [TIFF OMITTED] T8265.051
    
    The Chairman. House Rules require all House committees 
to adopt an oversight plan no later than February 15th. The 
oversight plan includes the broad range of issues that the 
committee will be considering during the 113th Congress, and 
has been developed jointly with Ranking Member Smith and his 
staff.
    As was the case with the rules package, the oversight plan 
was provided to all Members' offices on Friday, January 11th. 
Following consultation with Mr. Smith, I ask unanimous consent 
that the resolution be considered as read and that the 
resolution be open to amendment at any point. Is there 
objection?
    Without objection, it is so ordered.
    At this time, is there any discussion, or are there any 
questions concerning the oversight plan?
    If there is no further discussion, are there any amendments 
to the oversight plan?
    The chair now recognizes the gentleman from Texas, Mr. 
Thornberry, for the purpose of offering a motion regarding 
Committee Resolution No. 2, the committee oversight plan for 
the 113th Congress.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 2, concerning the committee oversight plan.
    The Chairman. The question now occurs on the motion of the 
gentleman from Texas, Mr. Thornberry.
    So many as are in favor will say aye.
    Those opposed, no.
    A quorum being present, the motion is agreed to, and 
without objection, the motion to reconsider is laid upon the 
table.
    Under the next order of business, I call up Committee 
Resolution No. 3, regarding the committee's security procedures 
for the 113th Congress.
    The clerk shall read the resolution.
    Mr. Zakheim. Committee Resolution No. 3. Resolved, that the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee security procedures for the 113th Congress, 
a copy of which is before each Member.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T8265.052
    
    [GRAPHIC] [TIFF OMITTED] T8265.053
    
    [GRAPHIC] [TIFF OMITTED] T8265.054
    
    [GRAPHIC] [TIFF OMITTED] T8265.055
    
    [GRAPHIC] [TIFF OMITTED] T8265.056
    
    [GRAPHIC] [TIFF OMITTED] T8265.057
    
    [GRAPHIC] [TIFF OMITTED] T8265.058
    
    [GRAPHIC] [TIFF OMITTED] T8265.059
    
    [GRAPHIC] [TIFF OMITTED] T8265.060
    
    The Chairman. The security procedures plan was 
coordinated with Mr. Smith and was subsequently provided to all 
Members' offices on Friday, January 11th. Following 
consultation with Mr. Smith, I ask unanimous consent that the 
resolution be considered as read and that the resolution be 
open to amendment at any point.
    Is there objection?
    Without objection, it is so ordered.
    At this time, is there any discussion, or are there any 
questions concerning the security procedures?
    If there is no further discussion, are there any amendments 
to the security procedures?
    The chair now recognizes the gentleman from Texas, Mr. 
Thornberry, for the purpose of offering a motion regarding 
Committee Resolution No. 3, the security procedures for the 
113th Congress.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 3, the security procedures for the 113th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentlemen from Texas, Mr. Thornberry.
    So many as are in favor will say aye.
    Those opposed, no.
    A quorum being present, the motion is agreed to, and 
without objection the motion to reconsider is laid upon the 
table.
    Under the final order of business, I call up Committee 
Resolution No. 4, appointing committee staff for the 113th 
Congress.
    The clerk shall read the resolution.
    Mr. Zakheim. Committee Resolution No. 4. Resolved, that the 
persons listed on the sheet before the Members, and such other 
personnel as may be required by the committee within the limits 
and terms authorized under the Rules of the House of 
Representatives, are hereby appointed to the staff of the 
Committee on Armed Services, U.S. House of Representatives, for 
the 113th Congress, it being understood that according to the 
provisions of law, the chairman will fix the basic salary per 
annum.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T8265.061
    
    [GRAPHIC] [TIFF OMITTED] T8265.062
    
    The Chairman. As many of you know, our committee is 
unique in that the committee staff is integrated without 
distinction between majority and minority staffs. They are here 
to provide advice and counsel to all of you, Republican and 
Democratic Members alike.
    You know, I don't know whether Doug was a Republican or a 
Democrat. Yeah, I don't know if he knew what he was. He was 
interested in our defense.
    Please feel free to avail yourself of their services. They 
are a talented group of professionals.
    A copy of the committee staff for the 113th Congress was 
originally provided to Members' offices on Friday, January 
13th. The Members should all have--excuse me, January 11th. The 
Members should all have before them an updated version, which 
has been prepared in consultation with the minority, because of 
the passing of Doug.
    Following consultation with Mr. Smith, I ask unanimous 
consent that the resolution be considered as read.
    Is there objection?
    Without objection, it is so ordered.
    At this time, is there any discussion, or are there any 
questions concerning the committee staff?
    If there is no further discussion, the chair now recognizes 
the gentleman from Texas, Mr. Thornberry, for the purpose of 
offering a motion regarding Committee Resolution No. 4, 
appointing the committee staff for the 113th Congress.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 4, regarding committee staffing for the 113th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from Texas, Mr. Thornberry.
    So many as are in favor will say aye.
    Those opposed, no.
    A quorum being present, the motion is agreed to, and 
without objection, a motion to reconsider is laid upon the 
table.
    Without objection, committee staff is authorized to make 
technical and conforming changes to reflect the actions of the 
committee in adopting Committee Resolutions Nos. 1 through 4.
    Before we adjourn, let me raise a few administrative 
matters. As chairman, I plan to strictly enforce the 5-minute 
rule for the questioning of witnesses. Once your time is up, I 
will call the time. I would also like to remind Members that 
the full committee will hold a classified Members only briefing 
on Afghanistan and Pakistan operations and intelligence next 
Tuesday, January 22nd, at 10:00 o'clock in this room. 
Additionally, the full committee will hold a hearing at 10:00 
a.m. on Wednesday, January 23rd, on the review of sexual 
misconduct by basic training instructors at Lackland Air Force 
Base. Both of these are very important hearings, and I would 
encourage you all to be here.
    Let me recognize Mr. Smith for his closing comments.
    Mr. Smith. Thank you, Mr. Chairman. I don't really have 
anything to add, except to say thank you, and now let's get to 
work.
    The Chairman. Thank you very much.
    In the interest of brevity, if there is no further 
business, the committee stands adjourned subject to the call of 
the chair. Thank you all very much.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
